Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206
Pro Per
SUPREME COURT OF THE UNITED STATES, WASHINGTON DC
Donna Dawson, Plaintiff
vs
Mary Ann Valdez, et al, Defendants
Case 20-6358
MOTION FOR REHEARING
Plaintiff, Donna Dawson, herein requests from the court a Motion
for Rehearing.
Due to the previous attorney Jamey Thompson, Attorney for the
Defendants. held the process of this case up and upheld the
numerous violations of Mary Ann Valdez employed by Security
Title/Fidelity National Title.
who has since then resigned from the case.
Attorney Brian Cosper's performance is the same; Attorney Cosper
does not know the facts and violations of this case and is needlessly
avoiding and delaying matters.
Plaintiff therefore is requesting a rehearing of this ca

'RECEIVED
JUL - 8 2021
OFFICE CP TI-1 CLERK
SUPREME CO:JGT U.S.

bp. -7 /a 0.)-4
Respectfully,
Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206
cc
Attorney Brian Cosper

Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206
Pro Per
SUPREME COURT OF THE UNITED STATES, WASHINGTON DC
Donna Dawson, Plaintiff
vs
Mary Ann Valdez, et al, Defendants
Case 20-6358
MOTION AND CERTIFICATE FOR REHEARING
Plaintiff herein files this Certificate for rehearing that the grounds
are limited to intervening circumstances of substantial or
controlling effect or to other substantial ground not previously
presented.
Plaintiff declares this Motion for Rehearing is filed in good faith and
all Motions requested have been filed in a timely manner.
Respectfully
et-_,0447(1 _ I
Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206

,I;),e .1(

Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206
Pro Per
SUPREME COURT OF THE UNITED STATES, WASHINGTON, DC
DONNA DAWSON, PLAINTIFF
VS
MARY ANN VALDEZ, ET AL, DEFENDANTS
Case 20-6358
PETITION FOR REHEARING PER RULE 44.6
DONNA DAWSON, PLAINTIFF REQUESTS FROM THE COURT FOR
REHEARING IN GOOD FAITH.
I DECLARE THAT THE PETITION FOR REHEARING WAS DEPOSITED
IN THE UNITED STATES MAIL AS FOLLOWS:
FILED WRIT OF CERATORI 7-7-2020 DEPOSITED INTO US MAIL
7-7-2020
SERVED WRIT 7-22-2020 DEPORIED INTO US MAIL 7-7-2020
FILED WITH WRIT WITH US COURT 7-28-2020
PLACED ON DOCKET 11-17-2020
ANSWER FROM ATTORNEY BRIAN COSPER 12-10-2020
ATTORNEY BRIAN COSPER HAS NOT ANSWERED COURT SINCE
12-10-2020
FILED MOTION REGARDING ATTORNEY 12-20- °RECEIVED
MAY 112021
tratileTAIIVelik

Donna Dawson
4437 E. Catalina Avenue
Mesa, AZ 85206
Pro Per
SUPREME COURT OF THE UNITED STATES, WASHINGTON, DC
Donna Dawson, Plaintiff
vs
Mary Ann Valdez, et al, Defendants
Case 20-6358
MOTION FOR REHEARING
Plaintiff herein requests from the court a rehearing of this case in
good faith.
During Covid Plaintiff has no control over when the US Mail arrives
to the court, when mail is opened or acknowledged or if employees
of the court are working remote or in the office.
Therefore Plaintiff is requesting for a rehearing.
Dated this 21st day of May, 2021
Donna Dawson
RECEIVED
JUN 1 m 2021
OFFICE r THE CLERK
SURREY ... COURT, U.S.

